No. 19-547
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL., PETITIONERS
v.
SIERRA CLUB, INC.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONERS, via e-mail and first-class mail, postage prepaid, this
21st day of May 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12708 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 21, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 21, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0547
UNITED STATES FISH AND WILDLIFE SERVICE,
ET AL.
SIERRA CLUB, INC.

SANJAY NARAYAN
SIERRA CLUB ENVIRONMENTAL LAW
PROGRAM
2101 WEBSTER STREET
SUITE 1300
OAKLAND, CA 94612
415-977-5769
SANJAY.NARAYAN@SIERRACLUB.ORG

